           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  STATUS OF THE SOCIAL SECURITY
ADMINISTRATION’S IMPLEMENTATION
        OF FISCAL YEAR 1999
      MANAGEMENT LETTER
       RECOMMMENDATIONS

   February 2002   A-15-00-30056




 AUDIT REPORT
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM

Date:   February 7, 2002                                                   Refer To:

To:     Jo Anne B. Barnhart
        Commissioner

From:   Inspector General


Subject:   Status of the Social Security Administration’s Implementation of
           Fiscal Year 1999 Management Letter Recommendations (A-15-00-30056)


        OBJECTIVE
        This is a follow-up audit to the PricewaterhouseCoopers LLP (PwC), Fiscal Year 1999
        Management Letter – Part 2, Recommendations to Improve Management Controls and
        Operations Resulting from the Fiscal Year 1999 Financial Statement Audit, dated
        November 18, 1999. The objective of this follow-up audit was to determine the status
        of selected findings and recommendations in the management letter referred to above.

        BACKGROUND
        In Fiscal Year (FY) 1999, PwC, an independent certified public accounting firm,
        performed an audit of the consolidated financial statements of the Social Security
        Administration (SSA) as of and for the year ending September 30, 1999. PwC issued
        its Report of Independent Accountants, dated November 18, 1999, which is included in
        SSA’s Accountability Report for FY 1999. The Office of the Inspector General (OIG)
        monitored the work of PwC.

        The primary objectives of the financial statement audit were to:

        ·    Give an opinion on the SSA financial statements as of and for the year ending
             September 30, 1999, including the related notes.
        ·    Give an opinion as to whether SSA management’s assertion about the effectiveness
             of its internal control was fairly stated.
        ·    Issue a report on SSA’s compliance with applicable laws and regulations.
Page 2 – Jo Anne B. Barnhart

·   Determine whether any material inconsistency was found between the financial
    statements and the accompanying overview and supplemental information
    (including performance measures), and PwC’s understanding of relevant internal
    control for the reported performance measures, its determination as to whether they
    had been placed in operation, and its assessment of the related control risk.

The audit of SSA’s financial statement also identified conditions that did not have a
material impact on the financial statements. To report these conditions, PwC issued
Management Letters – Part 1 and Part 2 to SSA addressing areas in need of
management attention. Management Letter, Part 1, contains details of a sensitive
nature to SSA and is, therefore, restricted in its use. It is considered a limited
distribution report. Management Letter, Part 2, contains issues of a general nature and
is not limited in its distribution, but is intended as information for management and the
Inspector General of SSA. In accordance with applicable standards, the Management
Letter issues were not considered by PwC to be material weaknesses or reportable
conditions. Nonetheless, the letters contain both findings and recommendations
requiring management action.

SCOPE AND METHODOLOGY
We performed follow-up audit work on 19 of the 42 recommendations published in
PwC’s FY 1999 Management Letter – Part 2. In addition, we performed follow-up work
on one recommendation from PwC’s FY 1998 Management Letter – Part 2. SSA
believed implementation was complete on the FY 1998 recommendation, and PwC
closed the recommendation. However, during our follow-up field work, we found the
recommendation was not complete. We selected recommendations from the FY 1999
report which, in our opinion, were the most important for SSA to implement. Because
the original audit was SSA-wide, the findings and recommendations covered various
offices within SSA. For the specific findings we reviewed, see Appendix A.

To accomplish our objective, we:

·   Validated SSA’s reported status of management action on selected
    recommendations.
·   Determined whether corrective action has addressed the recommendations.

We conducted our review from September 2000 through June 2001 at SSA
Headquarters in Baltimore, Maryland. Our audit was conducted in accordance with
generally accepted government auditing standards.
Page 3 – Jo Anne B. Barnhart

RESULTS OF REVIEW
Of the 20 recommendations we selected, SSA stated it completed work on
12 recommendations. SSA agreed with, but had not fully completed corrective actions
on eight recommendations.
OIG’s Evaluation of SSA Corrective Actions

We evaluated SSA’s progress and corrective actions by: interviewing the responsible
SSA contact officials; reviewing PwC’s work conducted during the FY 2000 financial
statement audit; and performing audit tests where necessary. In some cases, we relied
on the audit work performed by PwC during the FY 2000 financial statement audit. The
results of our review are as follows:

                    Audit Results                               Findings/Recommendations


OIG agrees with SSA’s reported status                                            15

OIG disagrees with SSA’s reported status                                          5

Total                                                                            20

Improper Reporting of Obligations for Supplemental Security Income
Administrative Costs

As part of our follow-up work on 1 of the 20 recommendations (V. 17.1), we reviewed
the transactions associated with a large increase in Supplemental Security Income
(SSI) operating expenses between 1998 and 1999. Although we agree that work on the
recommendation made by PwC is complete, we found a separate issue not addressed
by PwC regarding how SSI administrative expenses are recorded. SSA stated that SSI
administrative expenses were understated in error on the FY 1998 financial statements
by approximately $175 million. However, SSA could not provide journal vouchers or a
clear explanation of how the error occurred or was otherwise corrected. Due to the
incomplete documentation, we were not able to determine if SSA appropriately
corrected the SSI understatement. SSA stated that it records all obligations relating to
administrative expenses for SSI in the Limitation on Administrative Expenses (LAE)
account. Throughout the year, SSA transfers a percentage of costs to the SSI
appropriation from the LAE account. SSA has indicated that it records obligations and
expenditures in SSI up to the amount of the annual SSI administrative allotment.

1
 Recommendation V.17 indicates that SSA should develop procedures to clearly articulate and explain
any significant change in its financial operations. Regular financial analysis should be conducted on
program expenses and all other financial matters, to help ensure the overall accuracy of SSA’s operations,
and to ensure that variations are investigated and resolved.
Page 4 – Jo Anne B. Barnhart

Excess SSI administrative costs are recorded as unfunded liabilities. The unfunded
liabilities are not recorded as SSI obligations until the following FY when a new
allotment becomes available.

In FY 1998, the SSI administrative allotment was $2,077,000,000. SSA recorded SSI
administrative obligations of $2,015,664,271. SSI administrative obligations for
FY 1998 were understated in error by $175 million. Had the error not occurred, SSA
would have recorded SSI administrative obligations of $2,077,000,000 in FY 1998 (up
to the allotment amount). SSA would have recorded the remainder of the $175 million
as an unfunded liability of $113,664,271.

Based on SSA’s FY 1999 and FY 2000 figures, excess obligations over the SSI
administrative allotment amount were recorded as unfunded liabilities, not obligations.
We discovered that the issue of accounting for SSI administrative expenses was
previously addressed in 1989. At that time, the U.S. General Accounting Office (GAO)
stated that, “SSA should record in the SSI appropriation the best estimate of the
general fund’s share of obligations incurred in the LAE account, even if it exceeds SSI
appropriations for that purpose.” GAO concluded that these excess obligations do not
violate anti-deficiency statutes because Congress authorized them for SSI. SSA
informed us that there may be limitations in recording excess obligations. SSA stated
that it could not report the excess obligations on the face of the SF-133, Report on
Budget Execution and Budgetary Resources, due to system edits. In accordance with
the Office of Management and Budget Bulletin No. 01-09, information on the Statement
of Budgetary Resources should be consistent with the information on the SF-133.

As a part of our review, we shared our findings with PwC. PwC is currently reviewing
the accounting for these unfunded liabilities as part of the Financial Statement Audit.
The OIG will continue to track the progress of this issue between SSA and PwC. At a
minimum, SSA should report any unfunded liabilities in the footnote section of the
SF-133 and disclose the unfunded liability in the footnote associated with the Statement
of Budgetary Resources.

We noted that SSA has exceeded the SSI allotment for FYs 1999 and 2000. Although
SSA’s Office of General Counsel and GAO guidance suggests that exceeding the SSI
administrative allotment is allowable, sound financial management would dictate that
such large overruns should be closely scrutinized.

                Total SSI          Recorded            Recorded        Percentage of
             Administrative    SSI Administrative      Unfunded       Total Obligations
                Allotment          Obligations          Liability      Left Unfunded
FY 1999     $ 2,114,000,000     $ 2,114,000,000      $ 217,224,602          9.3%
FY 2000     $ 2,142,000,000     $ 2,142,000,000      $ 314,830,595         12.8%
Page 5 – Jo Anne B. Barnhart

Summary of the Recommendations Where OIG Disagrees with SSA on the
Status

1. PwC recommended SSA ensure that the changes in the edit criteria required to
   improve suspense processing, along with the addition of a Third Party Draft vendor
   table, are implemented as soon as possible and that the vendor tables in both the
   Third Party Draft system and the Financial Accounting System (FACTS) are
   maintained in a consistent manner. SSA agreed with this recommendation and
   reported that it would be complete by Fall 2000. OIG disagrees that this work is
   complete. SSA implemented the Third Party Payment System (TPPS) release 2.0
   in December 2000. This release was intended to provide for the automatic
   transmission of vendor information data from the Third Party Draft system to SSA
   Headquarters in an effort to reduce suspense file items. The data would then have
   been loaded in a data base and uploaded to FACTS. However, at the time of our
   review, the automated link from the Third Party Draft system vendor table to the
   FACTS vendor table was not being fully utilized because TPPS users were not
   inputting accurate data in the vendor file. Instead, the Office of Financial Policy and
   Operations staff were manually reviewing and correcting the vendor data before the
   FACTS vendor table was updated. Therefore, the vendor tables in each system
   may not be consistent with each other. In addition, at the time of our review, SSA
   had not determined the impact of the release in reducing suspense file items. SSA
   stated that it might need to issue another TPPS release with edits in place to ensure
   the integrity of the data. SSA subsequently informed us that there has been a
   significant decrease in the number of suspense file items. However, we did not
   perform additional tests to validate this claim. See finding IV.1.B. on pages 17-19 of
   Appendix A.

2. PwC recommended SSA enhance current policies and procedures to ensure that
   the de-obligation process for open obligations is operating effectively and timely.
   SSA agreed with this recommendation and reported that work in this area was
   complete. SSA implemented new procedures to list obligations with no activity for
   three months and monitor total obligations for reasonableness. They also use
   monthly Reports of Validations to track open items that have been removed.
   However, OIG disagrees with SSA’s reported status. We agree with PwC’s FY 2000
   findings that the Report of Validations used during the review of open obligations is
   incomplete and provides no tracking of the overall validation and reductions in open
   obligations. The Report of Validations does not reflect items removed from open
   obligations by SSA staff in the Administrative Accounting and Payment section.
   Several SSA employees stated that there is no way to track the overall reduction of
   suspense file items. Current procedures still do not ensure that the de-obligation
   process is operating effectively, since SSA can not track reductions in open
   obligations. See finding IV.1.E. on pages 22-23 of Appendix A.
Page 6 – Jo Anne B. Barnhart

3. PwC recommended SSA seek to formalize via a Memorandum of Understanding
   (MOU) the process used to transfer revenue estimates from the Department of
   Treasury (Treasury) to the SSA trust funds. SSA agreed with modifying a section of
   the SSA Accounting Manual that covered this process, had begun work on it, and
   reported that it would be complete by August 31, 2000. OIG disagrees that this
   work is completed. SSA has issued its Accounting Manual chapter, but Treasury is
   not willing to sign off on it. Instead, Treasury will issue its own document to define
   Treasury and program Agency responsibilities that includes fund management and
   oversight. SSA stated that this documentation is expected to be started sometime
   in 2002. At the time of our review, the process was not formalized. SSA should
   ensure any formal documentation provided by Treasury adequately addresses the
   responsibilities of both parties and assigns accountability for the various tasks
   involved in the revenue estimate and the transfer of funds from Treasury to SSA’s
   trust funds as recommended by PwC. See finding V.3. on pages 33-34 of
   Appendix A.

4. PwC recommended SSA maintain documentation of the Continuing Disability
   Review (CDR) profiling and scoring programs, including input data sets and all
   variables used in fitting the prediction models. SSA agreed with this
   recommendation and reported that documentation would be in place by
   December 2000. OIG disagrees that this work is completed. SSA did provide
   documentation to PwC, however it had to be recreated from the results of the CDR
   work. SSA did not maintain the original documentation used during creation of the
   FY 2000 CDR eligible file and exclusion files. In addition, at the time of our review in
   February 2001, SSA was not maintaining documentation on all variables used in
   fitting the prediction models. SSA subsequently informed us that all documentation
   is being maintained, however, we did not perform additional tests to validate this
   claim. See finding V.13. on pages 41-42 of Appendix A.

5. PwC recommended the Office of the Chief Actuary create and implement a formal
   policy which addresses version and document control surrounding the semi-annual
   model outputs and identify a standard set of checks and procedures that should be
   performed on short-term revenue data and calculations produced by the models.
   SSA agreed with the recommendation but stated that current procedures already
   address these issues. OIG disagrees that corrective action for this recommendation
   is complete. While we agree that output documentation is maintained and standard
   checks and procedures are performed on output data, we do not believe these
   actions meet the intent of PwC’s recommendation. There are no formal procedures
   written for how data is to be verified. In addition, there is no formal policy in place to
   address version and document control. See finding V.14. on pages 43-44 of
   Appendix A.
Page 7 – Jo Anne B. Barnhart

CONCLUSION AND RECOMMENDATIONS
We reviewed 20 recommendations. SSA stated it had completed work on 12 of the
20 recommendations. However, we have concluded that SSA has implemented only
7 of the 12 recommendations. We found that SSA had not completed work on the
other five recommendations. In summary, SSA has not fully implemented 13 of the
20 recommendations, although some actions have been taken to begin addressing
these issues. Eleven of the 13 incomplete recommendations are repeat issues from
the FY 1998 audit. In addition, eight of these have been issues since the FY 1997
audit.

We recommend SSA:

1. Continue to work to bring all of the issues identified by PwC to closure within the
   next audit cycle.

2. At a minimum, report any unfunded liabilities in the footnote section of the SF-133
   and disclose the unfunded liability in the Financial Statement footnote associated
   with the Statement of Budgetary Resources. However, PwC may determine that
   further reporting or disclosure is necessary. This may require additional action on
   the part of the agency.

3. Institute a monitoring system to ensure that annual SSI expenses and obligations
   made in excess of the annual SSI administrative allotment do not continue to grow.

AGENCY COMMENTS AND OIG RESPONSE
SSA generally agreed with our recommendations, but stated it will continue to research
whether a footnote should be included on the Statement of Budgetary Resources when
an unfunded liability exists. SSA disagreed with our conclusions concerning its
implementation of PwC’s five recommendations discussed in the body of this report
even though three of these recommendations continue to exist in PwC’s Draft FY 2001
Management Letter. We continue to stress that at the time of our fieldwork for this
audit, work on the other two recommendations was not complete, but we did include
language in our report that SSA stated these recommendations are now fully
implemented. In addition, we are reviewing these recommendations again for our
follow-up audit of the FY 2000 Management Letter.




                                                James G. Huse, Jr.
                                     Appendices
APPENDIX A – Audit Results: Fiscal Year 1999 Management Letter Part 2

APPENDIX B – Acronyms

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                          Appendix A
Audit Results – Fiscal Year 1999 Management Letter –
                        Part 2
Report Section/Area       II. Application Development and Change Control -
                          Software Engineering Technology (SET)

Finding/Rec Number        II.1.B.

PwC Finding               The nature of the System Release (SR) process
                          remains manual. Basically, a paper trail follows the
                          entire change control process from development to
                          validation to quality assurance (proposed) to a
                          staging area and then to production. The manual
                          process is labor intensive and prone to administrative
                          problems, as evidenced from prior audit findings
                          relative to missing SRs supporting the change control
                          process.

                          In July 1999, SSA completed a pilot project for
                          automating the SR process and establishing a QA
                          library function within the systems development and
                          program change control process. At the time of our
                          review, the pilot was being reviewed by OTSO for
                          potential approval. If approved, a proposal for
                          implementation will be completed and presented to
                          the Associate Commissioner for Systems.

PwC Recommendation        SSA should complete its review of the pilot for
                          automating the SR process and set an
                          implementation date for institutionalizing this
                          important part of the system development and
                          change control process.

SSA Management Response   We agree. As noted, SSA’s pilot project was
                          completed in June 1999. Management was briefed on
                          the workgroup’s recommendations and provided
                          comments. The workgroup is now formulating final
                          recommendations. DCS review/approval of the
                          recommendations is expected by the end of the next
                          quarter. Implementation plans will be finalized upon
                          DCS approval. A phased implementation is
                          anticipated.

Cross Reference           FY98 Management Letter - Part 2, II.1.B; FY97
                          Management Letter - Part 2, III.1.B.

SSA Action Plan           See Management Response



                                    A-1
Current Status per SSA       SSA has decided to develop an online SRC process
                             on the Intranet. Coding is complete and is now
                             undergoing testing. The process will be piloted
                             among Offices of Information Management and SSI
                             components in Systems Requirements and Systems
                             Design and Development beginning August 2000.
                             Rollout to all users will commence thereafter in a
                             phased approach.

SSA Target Date              Ongoing

SSA Updated Target Date      Complete

End Date – OIG Review        2/6/01

OIG Confirmation of Status   Agree. The status of work on this recommendation
                             was updated since SSA’s Action Plan was issued.
                             SSA has approved, developed, and piloted the online
                             SRC process. Implementation is complete within OIM
                             components and is beginning within OSDD
                             components. Due to a small system glitch, the SRC
                             process has not been fully implemented within OSDD
                             at this time. In our opinion, SSA has met the intent of
                             PwC’s recommendation by completing its review of
                             the pilot and beginning to implement this process




                                      A-2
Report Section/Area       II. Application Development and Change Control -
                          Scope of Application Programmer Duties

Finding/Rec Number        II.2.A.

PwC Finding               The current architecture for the change control
                          process is Endevor software, which records
                          programmatic changes within the Development to
                          Validation process. A program change will then
                          migrate to final production through the use of both
                          SSA home grown and third party software. In past
                          audits the establishment of a QA library where only
                          validated software that is ready to be moved into
                          production will reside has been recommended. In
                          addition to the establishment of this QA library, SSA
                          is considering expanding the role of Endevor to be
                          included within the Validation to Integration and
                          Integration to Production stages of the program
                          change control process. This expansion would help
                          ensure consistency in providing segregation of duties
                          throughout the process and uniformity in the change
                          process along with associated reporting capabilities.

PwC Recommendation        SSA should ensure the planned QA library
                          procedures adequately provide for controlled
                          migration of code between regions and protect
                          production source programs and load modules from
                          unauthorized tampering by application programmers.

SSA Management Response   We agree. At this time, DCS is analyzing whether
                          utilizing the additional capabilities of Endevor
                          software would provide the most effective controls. If
                          Endevor's capabilities prove efficient, implementation
                          would replace the use of the QA library, provide
                          controlled migration of code between regions and
                          protect source code and load modules from
                          unauthorized tampering. We expect to make a
                          decision about Endevor within the next quarter.

Cross Reference           FY98 Management Letter - Part 2, II.2.A; FY97
                          Management Letter - Part 2, III.2.A.

SSA Action Plan           See Management Response




                                    A-3
Current Status per SSA       DCS is analyzing another software application hybrid
                             to determine if it would offer better capabilities then
                             Endevor software. Once this analysis is complete,
                             the DCS will be briefed, and a decision on which
                             software to adopt will be made.

SSA Target Date              To be determined.

End Date – OIG Review        2/5/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA has approved an enhanced version
                             of the QA solution recommended by PwC, but
                             software development is not yet complete. This will
                             be an automated process that SSA believes will
                             adequately address PwC’s concerns regarding
                             separation of duties.




                                      A-4
Report Section/Area       III. Programmatic Systems - Title II

Finding/Rec Number        III.1.A.

PwC Finding               Past audits have noted that override codes are
                          available to process unusual situations and bypass
                          certain edits and validations otherwise normally
                          performed by the post-entitlement programs. For
                          example, a Special Action Code (SAC) of “O” is used
                          to allow users to process unusual situations for non-
                          receipt actions on exotic Beneficiary Identification
                          Codes (BICs) and bypass edits and validations
                          normally performed by the REACT program. This
                          code is also used to issue payments to attorneys and
                          financial institutions, as well as in garnishment
                          situations.

                          As further noted in past audits, no reports are
                          generated to provide management with the
                          opportunity to review override code usage.
                          Consequently, SSA faces a greater risk that functions
                          such as the SAC of “O” code could be inappropriately
                          used.

                          Based on our testing this year, we identified 11
                          instances where the SAC of “O” was used.

PwC Recommendation        To help ensure that overrides to the Title II Post
                          Entitlement programs are appropriate, SSA should
                          require peer-to-peer review and/or the generation of
                          an alert for performing an independent review of the
                          override.

SSA Management Response   We agree. We are establishing a peer-to-peer review
                          prior to the use of the DE override code and will
                          review the need for other peer-to-peer reviews of
                          override codes.

Cross Reference           FY98 Management Letter - Part 2, III.1.A.

SSA Action Plan           See Management Response

Current Status per SSA    A memo to establish a peer-to-peer review prior to the
                          use of the DE override code and a review of the need



                                     A-5
                             for other peer-to-peer reviews of override codes was
                             issued to all Payment Service Centers and the Office
                             of Central Operations in July 2000. The reviews have
                             been implemented by all components.

SSA Target Date              Completed

End Date – OIG Review        11/20/00

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. SSA established a peer-to-peer review on
                             actions using the Special Indication Code (SIC) of
                             “DE” to ensure the appropriate use of the code. SSA
                             has adequate compensating controls in place to
                             ensure an appropriate use of the SAC of “O”.




                                     A-6
Report Section/Area       III. Programmatic Systems - Earnings Record
                          Maintenance System

Finding/Rec Number        III.2.A.

PwC Finding               SSA has developed a key initiative tactical plan and
                          schedule entitled “Reduce Earnings Suspense File’s
                          Future Growth and Current Size” to address the
                          suspense file and reconciliation issue identified in
                          1997. This plan, initially drafted in July 1998, is
                          currently being revisited for changes, which SSA
                          hopes to complete by December 1999.

PwC Recommendation        SSA should ensure no further slippage occurs in
                          approving its tactical plan addressing the suspense
                          file and reconciliation issues. SSA should then
                          explore ways to expedite implementation of the
                          established tactical plan.

SSA Management Response   We agree and will do whatever possible to ensure no
                          further slippage occurs and to explore ways to
                          expedite implementation of the tactical plan.

Cross Reference           FY98 Management Letter - Part 2, III.3.A; FY97
                          Management Letter - Part 2, V.3.A.1.

SSA Action Plan           See Management Response

Current Status per SSA    SSA continues to take action to ensure no further
                          slippage occurs in addressing the items listed in the
                          tactical plan in regards to the Earnings Suspense File.
                          Given the current political environment, senior
                          management’s concerns over the implementation of
                          the Online Employee Verification System (OEVS) and
                          the ongoing discussions with numerous advocacy
                          groups and labor unions, it would be inadvisable to
                          further elaborate on suspense file reduction projects
                          that may or may not go forward under this tactical
                          plan.

SSA Target Date           Ongoing


End Date – OIG Review     12/21/00



                                     A-7
OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA has completed the Key Initiative
                             Plan that includes a schedule for the purpose of
                             accountability. This schedule should help ensure that
                             no further slippage occurs in addressing the
                             Suspense File and reconciliation issues. Only 3 of 14
                             deliverables have been completed, but within the
                             other 11 deliverables, many of the individual tasks
                             have been completed.




                                     A-8
Report Section/Area   III. Programmatic Systems - Death Alert, Control and
                      Update System (DACUS)

Finding/Rec Number    III.4.B.

PwC Finding           SSA’s current practice of obtaining death data does
                      not ensure that this data is entered into DACUS
                      accurately, timely, and only once. For example,
                      external entities under contract to SSA to supply
                      death data are required to submit death notifications
                      within 3 months of the month of death, for which SSA
                      pays 58 cents per transaction. The majority of these
                      entities are still preparing this data manually prior to
                      transmission, accounting for the extended time period
                      allowed for data submission. SSA is moving forward
                      with the implementation of electronic death
                      certificates to reduce the timeframe for submission.

                      Furthermore, no check exists within DACUS to
                      ensure that two or more data providers, such as a
                      state and a funeral home, are not submitting the
                      same death notice. Additionally, we were unable to
                      determine and validate if a check exists to restrict a
                      single user from submitting the same transactions
                      more than once.

                      SSA’s response to the FY 1998 issue of duplicate
                      payment was that payment is only made once to the
                      State Bureau of Vital Statistics based on the
                      submission being the first report of death. However, in
                      FY 1999 we were again unable to determine how
                      SSA can validate that a submission of death data is
                      the first reported. If this is possible, then SSA can
                      ensure that the risk of duplicate payments is greatly
                      reduced.

PwC Recommendation    SSA should:
                      -- Continue to pursue initiatives to reduce the amount
                      of time required by outside sources for submitting
                      death notifications, such as use of the electronic
                      death certificate.
                      -- Develop a method to prevent the submission or
                      receipt of duplicate information, whether submitted
                      from the same or different sources.




                                 A-9
SSA Management Response   We partially agree with this recommendation. SSA is
                          currently working with a contractor to develop a pilot
                          to test electronic submission of death data within 24
                          hours. The pilot is scheduled for FY 2000. We
                          continue to work on resolving issues regarding access
                          and security.

                          We request the auditors reconsider the second
                          bulleted recommendation. Preventing
                          receipt/issuance of duplicate death data concerning
                          the same individual from multiple sources is
                          technically impossible. To prevent reporting
                          duplication, it would require that all agencies have
                          direct, interactive access to the SSA databases,
                          which is not advisable. Even that would not prevent
                          individual sources, such as family members and
                          funeral directors, also from reporting someone's
                          death that was previously reported by an agency.
                          (There is no way to “receive” only certain records on a
                          given file.)

                          SSA only pays State Bureaus of Vital Statistics for
                          death data and then only if it is the first report of
                          death. The amount paid to States has been
                          relatively small. In future DACUS analysis efforts, we
                          will examine the MI for State data to ensure that it is
                          properly identifying only those records for which
                          payment is due.

Cross Reference           FY98 Management Letter - Part 2, III.5.B.

SSA Action Plan           See Management Response

Current Status per SSA    SSA continues to work with a contractor to develop a
                          pilot to test electronic submission of death data within
                          24 hours. The State where the pilot will be conducted
                          has yet to be selected. The start for the pilot remains
                          scheduled for FY 2000. In addition, work continues
                          on resolving issues regarding access and security.

                          As with earlier iterations of the recommendation, SSA
                          continues to not agree with the second part of the
                          recommendation.

SSA Target Date           To be determined.


                                  A-10
End Date – OIG Review        1/05/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA appears to be on target with its
                             action plan and is getting ready to run the pilot for an
                             electronic death registration (EDR) process. Although
                             SSA still disagrees with PwC’s recommendation
                             regarding duplicate death data receipts, the new EDR
                             system should eliminate duplicate processing.

                             In our opinion, the second part of PwC’s
                             recommendation should be modified to recommend
                             that SSA validate that a submission of death data is
                             the first reported, to reduce the risk of duplicate
                             payments. We agree with SSA that there is no way
                             to stop duplicate reporting of death data. As SSA
                             logically points out, there is no way to stop more than
                             one conscientious family member from reporting an
                             individual’s death. They may be unaware that a
                             funeral director or State agency has also reported the
                             death.




                                       A-11
Report Section/Area   III. Programmatic Systems - Computer Assisted Audit
                      Techniques - Data Integrity

Finding/Rec Number    III.6.A-D.

PwC Finding           Overview

                      Our 1999 work confirmed that data reliability/integrity
                      weaknesses still exist within SSA’s automated files
                      and records. While such problems can result from
                      application change control weaknesses or application
                      design weaknesses, they can also be the result of
                      minimal effort made to remove incorrect data
                      remaining on files after identified software code
                      weaknesses have been corrected. These data
                      anomalies could impact future processing or add to
                      SSA’s workload by requiring extra effort to resolve
                      incorrect data.

                      We performed selected tests, using audit software, on
                      some of SSA’s primary data files. This testing was
                      restricted to the sixteenth segment of the NUMIDENT,
                      MBR, and SSR files, and to the 1998 earnings data
                      posted for persons in that segment. A projected total
                      for all segments is presented in parenthesis for each
                      test listed.

                      Although SSA has begun to show some improvement
                      in this area, examples of the data integrity
                      weaknesses we identified during our 1999 testing are
                      discussed below.

                      III.6.A.
                      In 1997, a comparison of the MBR and NUMIDENT
                      identified 819 records (projected total 16,380) where
                      the individual was alive and in a current pay status on
                      the MBR but listed as dead on the NUMIDENT. In
                      1998, the comparison yielded similar results, with 944
                      records (projected total 18,880) identified. In 1999,
                      our comparison again yielded similar results, with 867
                      records (projected total of 17,340) identified.




                              A-12
III. 6. B.
In 1997, a comparison of the SSR and NUMIDENT
identified 60 records (projected total 1200) where the
individual was alive and in a current pay status on the
SSR but listed as dead on the NUMIDENT. In 1998,
the comparison yielded similar results, with 66
records (projected total 1320) being identified. In our
1999 testing we identified 49 (projected total 980)
records meeting this test criteria.

III. 6. C.
In 1997, a comparison of the MBR, SSR, and
NUMIDENT identified a large number of cases where
the corresponding records of a given individual had
significant differences in dates of death. Using a
tolerance >180 days for comparison purposes, we
noted 719,493 differences between the MBR and the
NUMIDENT and 232,306 differences between the
SSR and NUMIDENT. In 1998, the numbers
improved significantly, in part due to SSA’s attempt to
clean up and correct the data contained on its
databases. However, we still identified 2,625
differences between the MBR and the NUMIDENT
and 2,274 differences between the SSR and
NUMIDENT. In 1999, we again noted some
improvement; however, we still identified 1902
differences between the MBR and the NUMIDENT,
and 1580 differences between the SSR and the
NUMIDENT.

III. 6. D.
In 1997, a comparison of the MBR, SSR, and
NUMIDENT identified a large number of
corresponding records with significant differences in
dates of birth. Using a tolerance of >3 years for
comparison purposes, we noted 13,998 differences
between the MBR and the NUMIDENT, and 20,254
between the SSR and NUMIDENT.




       A-13
                          The number of discrepancies improved in 1998;
                          however, we still identified 6,433 differences between
                          the MBR and the NUMIDENT, and 711 between the
                          SSR and NUMIDENT. In 1999 the numbers
                          improved some more with 6,078 differences between
                          the MBR and the NUMIDENT, and 579 between the
                          SSR and NUMIDENT.

PwC Recommendation        General Recommendations

                          SSA should:
                          -- Analyze its automated databases to identify key
                          data integrity conditions that should apply within and
                          across databases.
                          -- Design and implement data integrity checking
                          programs for the full production databases to identify
                          the total population of records with potential data
                          integrity problems.
                          -- Investigate, identify, and rectify the root causes of
                          data integrity problems.
                          -- Ensure appropriate automated and manual
                          controls are in place to prevent problems from
                          recurring, including periodically running the data
                          integrity checking programs as a detective control.
                          -- Investigate and correct instances of invalid data on
                          individual records that may affect payment status.
                          Refer any suspicious data transactions to the OIG for
                          investigation.
                          -- Improve data administration for systems with
                          regard to applying consistent definitions and formats
                          for commonly used data elements.

                          For those instances where the data integrity problems
                          noted may be the result of historical problems now
                          prevented by SSA’s recent modernization efforts, the
                          agency should ensure that the existence of this data
                          will not adversely affect the payment status of any
                          individual.

                          III. 6. A. – D.
                          Refer to the General Recommendations above.

SSA Management Response   We agree and are taking the appropriate actions. As
                          reported last year, SSA has long-range plans to




                                  A-14
                         develop the Client system to strengthen data integrity.


                         Part of those plans include automated database
                         clean-up efforts whenever technically feasible. One
                         example is the planned posting of proven dates of
                         birth on the MBR and SSR to the Numident. This will

                         not only reduce date of birth discrepancies, but also
                         facilitate future postings of dates of death since there
                         will be fewer non-match situations. This activity is
                         currently unscheduled in the Enumeration/Client 5-
                         Year Plan, but we expect that it will occur before the
                         end of 2001.

                         III. 6. A. – D.
                         We agree. Please refer to the comments to the
                         General Recommendations above.

Cross Reference          FY 98 Management Letter - Part 2, III.6.Overview and
                         A.-D.; FY97 Management Letter - Part 2, III.6.A. and
                         A1. - A4.

SSA Action Plan          See Management Response

Current Status per SSA   There are no major changes planned for Client
                         between now and the end of the calendar year (2000)
                         that would impact this recommendation. With all
                         available resources devoted to high priority initiatives
                         in the TII and TXVI areas, not to mention legislation
                         and Internet, there are none available to work on
                         Client-related enhancements.

                         Long-range plans exist to develop the Client system
                         to strengthen data integrity. Automated database
                         clean-up efforts, whenever technically feasible, are
                         included in these plans. One example is the planned
                         posting of proven dates of birth on the MBR and SSR
                         to the Numident. This will not only reduce date of birth
                         discrepancies, but also facilitate future postings of
                         dates of death since there will be fewer non-match
                         situations. This activity is currently unscheduled in the
                         Enumeration/Client 5-Year Plan; resource issues may
                         or may not impact the originally anticipated
                         implementation of late 2001.




                                 A-15
SSA Target Date              Late 2001


End Date – OIG Review        1/04/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. No changes have been made to the
                             Client system that would impact data integrity
                             conditions or correction of invalid data on individual
                             records.




                                       A-16
Report Section/Area       IV. Administrative Systems - Financial Accounting
                          System (FACTS)

Finding/Rec Number        IV.1.B.

PwC Finding               Past audits determined that additional changes in the
                          front-end edit criteria are required to reduce the
                          number of suspense items. Without these changes,
                          the number of suspense items would grow to a level
                          that would impair SSA’s ability to clear items in a
                          timely manner. This, in turn, would increase the risk of
                          inaccurate data and inflated dollar values in
                          suspense. Accordingly, SSA management submitted
                          a request for changes in the edits affecting suspense
                          processing.

                          SSA implemented four fixes during FY 1999 to
                          address this issue. However, a substantial number of
                          suspended items remain open and unresolved for
                          more than 60 to 90 days. To assist in resolving these
                          items in a more timely manner, another fix that
                          includes adding a vendor table to the Third Party
                          Draft (TPD) system still remains to be implemented in
                          FY 2000. However, while a vendor may be identified
                          in the TPD vendor table, this does not mean that the
                          FACTS master vendor table has this vendor record.
                          Therefore, although the TPD vendor table may
                          contain the vendor, the FACTS vendor table may not,
                          resulting in suspension of the transaction.

PwC Recommendation        SSA should ensure that the changes in the edit
                          criteria required to improve suspense processing,
                          along with the addition of a Third Party Draft vendor
                          table, are implemented as soon as possible. In this
                          regard, SSA should reassess and confirm its
                          schedule for its implementations.

                          In addition, SSA should ensure that the vendor tables
                          in both the Third Party Draft system and FACTS are
                          maintained in a consistent manner.

SSA Management Response   We agree. The Third Party Draft Vendor table will be
                          fully implemented by the end of February 2000. This
                          table contains only the payee name and EIN but the
                          EIN is now a required field. During spring 2000, a


                                    A-17
                             systems release will require a cashier to enter the
                             same information that appears on FACTS’ vendor
                             maintenance screen for any payee that doesn’t exist
                             on the Third Party Payment System (TPPS) vendor
                             table. Via cc:Mail, the vendor information will be
                             transmitted to SSA for manual entry into FACTS. In
                             instances where cashiers provide erroneous vendor
                             information, SSA will electronically reply with correct
                             data that they can use to update the TPPS vendor
                             table.

Cross Reference              FY 98 Management Letter - Part 2, IV.1.B.; FY 97
                             Management Letter - Part 2, V.3.E.

SSA Action Plan              See Management Response

Current Status per SSA       On July 21, 2000, a nationwide download of the Third
                             Party Draft System (TTPS) Release 1.1 took place
                             which contains the Third Party Draft vendor table with
                             payee and EIN data. This release did not include 150
                             OHA and 40 standalone offices that will receive
                             Release 1.1 by mid-August and September,
                             respectively.

                             TPPS Release 2.0, which will contain the same
                             information as the FACTS vendor maintenance
                             screen, is targeted for Fall 2000. The Chicago
                             Regional Office is currently piloting Release 2.0.


                             In addition, please change the last sentence of our
                             Management Response to read as follows, “In
                             instances where cashiers provide a duplicate
                             EIN/SSN on the FACTS vendor table but the address
                             and/or name is different, SSA will contact the cashier
                             to verify which information is correct.”

SSA Target Date              September 2000 for TPPS release 1.1; Fall 2000 for
                             TPPS release 2.0

End Date – OIG Review        2/8/01

OIG Confirmation of Status   Disagree. SSA’s work on this recommendation is
                             incomplete. The TPPS Release 2.0 was implemented
                             on December 16, 2000. The release was intended to


                                      A-18
provide for the automatic transmission of vendor
information data from the Third Party Draft system to
SSA Headquarters in an effort to reduce suspense
file items. The data would then have been loaded in
a database and uploaded to FACTS. However, the
automated link from the Third Party Draft system
vendor file to the FACTS vendor file is not being fully
utilized because TPPS users are not inputting
accurate data in the vendor file. Instead, OFPO staff
are manually reviewing and correcting the vendor
data before the FACTS vendor table is updated.
Therefore, the vendor tables in each system may not
be consistent with each other. SSA has not yet
determined the impact of the release in reducing
suspense file items. SSA may need to issue another
TPPS release with edits in place to ensure the
integrity of input data.




        A-19
Report Section/Area       IV. Administrative Systems - Financial Accounting
                          System (FACTS)

Finding/Rec Number        IV.1.D.

PwC Finding               Of a sample of 45 journal vouchers tested in FY
                          1999, six were not adequately supported with
                          appropriate documentation and 10 did not have
                          adequate detail of the calculation performed to derive
                          the journal entry.

                          Discussions revealed that the supporting
                          documentation is not retained with the journal
                          voucher but rather stored in the area requesting the
                          posting of the journal voucher.

                          Furthermore, the procedures for completing and
                          retaining documentation for journal vouchers have not
                          been distributed to the technicians as they are still in
                          draft form.

                          Inadequate review, authorization, and documentation
                          of journal voucher entries could result in incorrect
                          entries being recorded.


PwC Recommendation        SSA management should finalize and distribute the
                          procedures for completing and retaining
                          documentation for journal vouchers. As part of these
                          procedures, management should consider filing
                          supporting documentation along with related journal
                          vouchers. Then SSA should perform periodic reviews
                          to ensure that existing procedures for authorizing and
                          documenting the support for journal vouchers are
                          adequately followed and operating effectively.

SSA Management Response   We agree and on August 30, 1999 the Office of
                          Finance issued SSA Accounting Manual guidance
                          that revised operating procedures for preparation and
                          approval of journal vouchers. This includes filing
                          supporting documentation with the journal voucher.
                          On an ongoing basis, completed journal vouchers are
                          reviewed to ensure they are in compliance with the
                          new procedures. We consider this recommendation
                          closed.



                                    A-20
Cross Reference              FY98 Management Letter - Part 2, IV.1.D.

SSA Action Plan              See Management Response

Current Status per SSA       Completed

SSA Target Date              Complete

End Date – OIG Review        2/2/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. The Accounting Manual procedures for
                             preparation and approval of journal vouchers are
                             adequate to ensure that journal vouchers are properly
                             authorized and documented. In addition, PwC’s
                             testing of journal vouchers was sufficient to conclude
                             that control procedures over the preparation,
                             documentation, review, and authorization of journal
                             vouchers is adequate.




                                      A-21
Report Section/Area       IV. Administrative Systems - Financial Accounting
                          System (FACTS)

Finding/Rec Number        IV.1.E.

PwC Finding               Past audits identified that open obligations were not
                          being de-obligated in a timely manner and de-
                          obligated obligations were not adequately
                          documented. Consequently, funding levels may be
                          incorrectly stated, resulting in the potential for
                          inappropriate use of valuable resources.

                          In FY 1999, SSA implemented procedures to
                          adequately document liquidated obligations.
                          However, per the Open Obligation Report, an
                          excessive number of long standing unliquidated
                          obligations remain outstanding, including numerous
                          obligations from fiscal years 1994, 1995, 1996, and
                          1997. Open obligations are not being de-obligated in
                          a timely manner in part due to the current procedures
                          not addressing the timely liquidation of obligations.

PwC Recommendation        SSA should enhance current policies and procedures
                          to ensure that the de-obligation process is operating
                          effectively and timely. One item that could be
                          implemented to aid in this process would be an aging
                          report of outstanding obligations.

SSA Management Response   We agree and effective October 28, 1999 have
                          implemented a new procedure which lists open
                          obligations which have not had any activity within the
                          last 3 months. These items are selected based on
                          amount criteria which can be modified as needed and
                          they are researched to determine their validity. We
                          also monitor total open obligations for
                          reasonableness. These procedures are in addition to
                          monthly reports on validation functions and open
                          items which have been removed. We consider this
                          recommendation closed.

Cross Reference           FY98 Management Letter - Part 2, IV.1.F.

SSA Action Plan           See Management Response

Current Status per SSA    Completed


                                    A-22
SSA Target Date              Complete

End Date – OIG Review        2/2/01

OIG Confirmation of Status   Disagree. SSA’s work on this recommendation is
                             incomplete. Although SSA did issue procedures to
                             review open obligations, PwC staff found that the
                             Report of Validations used during this review is
                             incomplete. They found that there is no tracking of
                             the overall validation and/or reductions in open
                             obligations. In addition, PwC found that the report
                             does not reflect items removed from open obligations
                             by SSA staff in the Administrative Accounting and
                             Payment section. Several SSA employees stated
                             that there is no way to track the overall reduction of
                             suspense file items. SSA staff stated that they are
                             revising the Report of Validations to include the input
                             of the accountants, not just the accounting
                             technicians. However, current procedures still do not
                             ensure that the de-obligation process is operating
                             effectively, since SSA can not track reductions in
                             open obligations.

                             SSA staff are taking other steps to ensure open
                             obligations are reviewed and de-obligated in a timely
                             manner. They are beginning to run monthly aging
                             reports to review current and prior fiscal years’
                             obligations. They also plan to hold annual
                             conferences in part to discuss validating open
                             obligations with regional offices and processing
                             center staff.




                                      A-23
Report Section/Area       V. Other

Finding/Rec Number        V.1.

PwC Finding               We requested a sample of DI and SSI case folders to
                          audit SSA’s compliance with applicable laws,
                          regulations, and program policies. Our audit disclosed
                          that SSA does not have adequate procedures to
                          locate and retrieve Title II and Title XVI beneficiary
                          case folders. SSA’s large volume of case folders, as
                          well as continuously transferring case folders
                          throughout SSA and State DDS, impedes SSA’s
                          ability to locate and retrieve case folders. SSA’s
                          policy is to maintain case folders for at least seven
                          years after the date of adjudication. In order for this
                          policy to be effective, SSA needs to be able to locate
                          and retrieve complete case folders within a
                          reasonable time frame. SSA was unable to provide
                          case folders for 3 out of 45 DI beneficiaries and for 3
                          out of 45 SSI beneficiaries.

                          For lost case folders, SSA cannot support the
                          beneficiary’s monthly payment amount and must rely
                          solely on the MBR or SSR, which does not always
                          maintain sufficient details regarding entitlement
                          factors.

PwC Recommendation        We recommend SSA continue its progress with
                          imaging processes, which would allow for the
                          maintenance of key supporting elements without
                          extensive storage requirements. However, until the
                          imaging process is fully functional, SSA should
                          enhance its current procedures for tracking and
                          retrieving case folders.

SSA Management Response   We agree. We will continue the progress with
                          imaging processes and work to enhance procedures
                          for tracking and retrieving case folders.

Cross Reference           FY98 Management Letter - Part 2, V.B.; FY97
                          Management Letter - Part 2, V.2.A2.

SSA Action Plan           See Management Response




                                 A-24
Current Status per SSA       DCDISP Response: The Office of Disability, with the
                             assistance from the Office of Operations, is in the
                             process of revising and updating the field office (FO)
                             and processing center (PC) Program Operations
                             Manual System (POMS) instructions relating to the
                             handling and, where appropriate, reconstruction of
                             title II and title XVI lost folders. The final FO POMS
                             instructions are scheduled to be released in
                             September 2000. The estimated completion date for
                             the PC POMS instructions is November 2000.

                             DCO Response: (A) We will continue the progress
                             with imaging processes and work to enhance
                             procedures for tracking and retrieving case folders.
                             The Great Lakes Payment Service Center (PSC), the
                             Mid-Atlantic PSC and the Western PSC will fully
                             implement the “Paperless Processing Center System”
                             by the end of August 2000. The remaining three
                             PSCs have begun implementing Paperless and are
                             expected to be fully implemented by the end of
                             December 2000. Paperless provides a better tracking
                             and retrieval process by building electronic folders
                             that house client records to substantially reduce our
                             reliance on paper records.

                             (B) SSA is currently piloting electronic folder, a
                             central repository designed to house disability
                             application data.

                             (C) To enhance current procedures for tracking
                             disability files, a disability circular was issued the first
                             quarter of the year 2000. This circular addresses
                             using the Continuing Disability Review Control File
                             (CDRCF) for tracking and control of CDR files.

SSA Target Date              A. December 2000
                             B. FY 2002
                             C. Completed

End Date – OIG Review        2/5/01

OIG Confirmation of Status   Agree. While SSA has completed certain actions,
                             overall work on this recommendation is incomplete.
                             We found that various SSA staffs have taken several
                             steps toward closing this recommendation. They


                                      A-25
issued revised POMS instructions to processing
centers and field offices. These were issued on
January 18, 2001, not in September and November
2000 as originally scheduled. We found that the
Paperless Processing Center System has been fully
implemented in all processing centers. This process
is currently being implemented in ODIO as well.
Several electronic folder pilots are continuing. One is
near completion, but the overall target date of FY
2002 has not changed. Instead of a disability circular
issued the first quarter of 2000, SSA issued an
Emergency Message on August 30, 1999.

Despite SSA’s actions to meet PwC’s expectations for
locating and retrieving completed case folders within
a reasonable time frame, PwC found many problems
during site visits made during FY 2000. PwC found
no consistent or uniform procedures for tracking and
securing QA case files in regional offices Disability
Quality Branches or in State DDS. PwC also noted
that these files are not stored in secured locations.
Because of these findings, PwC decided to leave this
recommendation open and we agree that the
recommendation should remain open.




       A-26
Report Section/Area   V. Other

Finding/Rec Number    V.2.

PwC Finding           SSA has implemented a number of internal
                      processes to help ensure the accuracy and
                      completeness of recipient/beneficiary payments. This
                      includes quality reviews completed in the field offices
                      (FO), regional offices (RO), program service centers
                      (PSC), and at SSA headquarters. We tested several
                      controls during our audit, in order to assess their
                      effectiveness. The results of our testing indicated that
                      the effectiveness of certain controls were impaired by
                      the following factors, (1) the controls tested were
                      inconsistently applied and documentation noting the
                      results of the reviews or needed changes to
                      recipient/beneficiary files were not maintained in
                      accordance with existing SSA policies and
                      procedures, and (2) SSA was unable to provide
                      evidence that required reviews were being conducted.

                      Inconsistent application and incomplete
                      documentation was noted in the following controls:
                      -- Index of Dollar Accuracy Reviews
                      -- Stewardship Reviews
                      -- Quality Assurance Reviews
                      -- Preeffectuation Reviews
                      -- Continuing Disability Reviews
                      -- OSCAR Reviews
                      -- Quarterly Force Pay Reviews
                      -- Critical and Immediate Pay Reviews
                      -- SS-5 Application Reviews
                      -- Non-salary Administrative Expenses
                      -- Diary Alerts

                      An example of inconsistent application of a
                      control/lacking documentation relates to our testing of
                      critical payments. Some of the field offices we visited
                      were able to provide us with the Critical Payment
                      System printouts as required by the POMS. Other
                      field offices were unable to provide us with these
                      printouts.

                      Instances when SSA was unable to provide evidence
                      that required reviews were being conducted included:


                              A-27
                          --   Title II Post-Entitlement Integrity Reviews
                          --   MISSICS Integrity Reviews
                          --   SAIR Reviews
                          --   Regional Office – OSCAR reviews of field offices
                          --   Field Office Daily Receipt Listing Reviews
                          --   CIRP Enumeration Reviews
                          --   Quarterly Force Pay Reviews
                          --   Weekly District Office Report

                          An example of reviews not being completed relates to
                          the CIRP Enumeration Reviews. In two of the twelve
                          field offices visited, the SSA personnel were unable to
                          provide any evidence that these reviews, which are
                          conducted to ensure that accuracy of SS-5 data, were
                          completed.

PwC Recommendation        SSA personnel should exercise greater care when
                          completing quality assurance reviews, all required
                          documentation should be maintained in accordance
                          with SSA policies and procedures, and completion of
                          the reviews should be documented. If the
                          documentation requirements outlined in POMS and
                          other SSA guidance provided to us have been
                          superseded by changes in SSA’s business
                          processes, then POMS should be updated
                          accordingly.

SSA Management Response   We agree. We will continue to monitor the full
                          completion and documentation of all quality and other
                          significant Agency reviews.

Cross Reference           Various

SSA Action Plan

Current Status per SSA    DCDISP Response: The Office of Disability and
                          Income Security Programs (ODISP) is currently in the
                          process of modifying and enhancing the current
                          tracking system. The following action steps are still
                          on target for implementation: implement CDR
                          development worksheet (target date: 9/2000);--
                          831/833 data (target date: 9/2000);-- replace PC-CDR
                          functionality (target date: 9/2001);-expand CDRCF
                          functionality to include: more automated interfaces
                          (target date: 9/2001); appeals (target date: after


                                    A-28
9/2001); online establishment capability (target date:
9/2001); title XVI work issues (target date: 9/2001);
suspense/defer-delay capability (target date: 9/2001);
-- batch establishment/correction/deletion capacity
(target date: 9/2001);and --replace ACID title II work
functionality (target date: 9/2004). NOTE: All of the
action steps listed above are included in the Office of
Systems (OS) 5-year work plans. ODISP is working
with OS to implement these actions, but the overall
responsibility for implementation belongs to OS.

DCFAM, OQA Responses:
INDEX OF DOLLAR ACCURACY/STEWARDSHIP
REVIEWS - This item lists several instances of
inconsistent application and incomplete
documentation in many areas, including IDA Reviews
and Stewardship reviews.

OQA obtained from PwC a list of the cases that were
determined problematic along with a description of
the problem(s) associated with the case(s) and
provided this information to the regions so that they
could take action to minimize those problems.

However, based on the review of the problem cases,
OQA determined that virtually all of the examples of
inconsistent application of procedures and incomplete
documentation were found to be erroneous. In our
latest discussions with the OIG contact, our sense is
that they intend to recommend that PwC delete this
recommendation from the report.

QA REVIEWS/PREEFFECTUATION REVIEWS -
This item lists several instances of inconsistent
application and incomplete documentation in many
areas, including QA and PER. However, none of the
examples cited referred to QA or PER.

In our close-out session with PwC, the auditors
provided us with several examples of inconsistencies
(basically, coding issues, as they agreed with the final
decision on every case reviewed). However, when
we reviewed their findings, we disagreed with virtually
every instance cited. We then re-contacted the




        A-29
auditors and attempted to explain how their
conclusions erred. It seems to us that perhaps the
findings were written, including PER and QA, before
they re-reviewed their conclusions with our input. We
requested that PwC reconsider their inclusion of PER
and QA in this item or that PwC provide sufficient
information to formulate the Agency response. We
have not heard anything further since then.

SS-5 APPLICATION REVIEWS - The review cites
"inconsistent application and incomplete
documentation" for "SS-5 Application Reviews."
There is no additional detail provided. Absent
communication to the contrary, we are assuming that
PwC is referring to Operations' review of the SS-5s in
field offices rather than the quality review conducted
in OQA.

DCO Response: Operations will continue to monitor
the full completion and documentation of all integrity
and security related reviews. We review the
completion of the On-Site Security Audit and Control
Reviews, the Comprehensive Integrity Review
Process reviews, and the claims and post-entitlement
integrity reviews. We provide monthly reports to the
Regions on the progress of the completion of these
security and integrity reviews. We have instructed
that the Regional Commissioners ensure that field
reviews are done on a timely basis and that full and
proper documentation is maintained as appropriate.

Operations has prepared language to revise POMS
publication addressing Quarterly Force Pay Listings
and procedures for field Offices to follow during the
review. These instructions should be released in early
FY 2001.

In December 1999, Administrative Message (AM –
99343 Report on the Quality of the Enumeration
Process for Calendar Year 1998) was issued to SSA
Operational Staff. This AM provides information
concerning the proper coding of the application form
for a Social Security Number (SSN Form SS-5). In
Addition, an Interactive Video Training (IVT) session




       A-30
                             on policy and procedures for the issuance of new
                             SSNs in identity theft and domestic abuse cases is
                             scheduled for release by the end of September 2000.
                             This IVT session will also include segments on the
                             proper coding of forms SS-5 and SSN evidentiary
                             documentation requirement.

                             We are expanding the roles of the Area Directors to
                             ensure that comprehensive managerial oversight is
                             added to security and integrity functions including the
                             completion of these reviews. The regions are
                             conducting enhanced training for all Management
                             Support Specialists on their roles in security reviews.

                             We have created a Regional Security Review team
                             made up of various Central Office components to
                             assess the awareness of security and the compliance
                             with national security policies that has visited three
                             regions this year. We will review all ten regions in the
                             next three years and will encompass the importance
                             of the reviews being conducted throughout the
                             Agency.

SSA Target Date              Various - See current status for implementation target
                             dates.

End Date – OIG Review        2/9/01

OIG Confirmation of Status   Agree. While SSA has completed certain actions,
                             overall work on this recommendation is incomplete.
                             We found that SSA has taken several steps toward
                             closing this recommendation. SSA completed as
                             scheduled two steps toward modifying and enhancing
                             the current tracking system. Additional tasks are
                             scheduled to be implemented between 2001 and
                             2004. Other SSA actions include reviewing the
                             completion of security and integrity reviews, providing
                             training, ensuring that comprehensive managerial
                             oversight is performed by Area Directors, and utilizing
                             a Regional Security Review team to assess the
                             awareness of security and the compliance with
                             national security policies.

                             Despite SSA’s actions to meet PwC’s expectations for
                             completing and documenting quality assurance



                                      A-31
reviews, PwC and the OIG found several issues still
exist. During their FY 2000 site visits, PwC staff
found incomplete and improper documentation and
lack of evidence of completed quality assurance
reviews. In addition, PwC believes SSA does not
have proper procedures in place to instruct regions on
how to complete IDA and Stewardship reviews. OQA
is preparing to take action to address these issues.
The POMS procedures for field offices to follow
during Quarterly Force Pay Listing reviews are now
scheduled for issue by June 30, 2001. The specific
IVT training discussed in SSA’s Action Plan will not
be held until July 2001, although other IVT classes
touching on enumeration issues have been held.




       A-32
Report Section/Area       V. Other

Finding/Rec Number        V.3.

PwC Finding               Prior to SSA's final wage certification, the Department
                          of the Treasury is responsible for transferring
                          estimated amounts for employment taxes collected to
                          the SSA trust funds on a regular basis. For a number
                          of years these transfers have been made based on
                          the revenue estimations completed by SSA's OCACT.
                          In FY 1999, SSA developed a chapter in the SSA
                          Accounting Manual documenting the transfer of
                          estimated amounts to the trust funds for employment
                          taxes collected. While this section of the SSA
                          Accounting Manual was shared with Treasury, the
                          chapter does not clearly assign accountability and
                          responsibility for the various tasks involved in the
                          periodic transfer of revenue estimates to the SSA
                          trust funds. In addition, while these policies were
                          shared with Treasury, SSA has not received
                          Treasury’s approval or agreement with the SSA
                          Accounting Manual. Without a clearly documented
                          Memorandum of Understanding (MOU) between SSA
                          and Treasury, correcting errors, which may occur
                          during this process, could be hampered or delayed.

PwC Recommendation        SSA should seek to formalize via a Memorandum of
                          Understanding (MOU) the process used to transfer
                          revenue estimates from the Treasury to the SSA trust
                          funds. The MOU should indicate the responsibilities
                          of Treasury and SSA and should clearly assign
                          accountability to each agency for the various tasks
                          involved in the revenue estimate and the transfer of
                          funds from the Treasury to the SSA trust funds.

SSA Management Response   We agree with modification. Based upon a January
                          21, 2000 meeting with SSA and PwC, agreement was
                          reached that SSA would revise the Accounting
                          Manual procedures to further describe the revenue
                          estimation and transfer of funds process and assign
                          accountability for those tasks. These revisions are
                          based upon input from PwC. SSA will seek
                          Treasury’s approval once the Accounting Manual is
                          revised. We expect to have this completed by the
                          end of April, 2000.


                                 A-33
Cross Reference              FY98 Management Letter - Part 2, V.D.; FY97
                             Management Letter - Part 2, V.2.I.

SSA Action Plan              See Management Response

Current Status per SSA       SSA has revised the SSA Accounting Manual chapter
                             based upon input from PwC. The revised procedures
                             are currently under review within SSA prior to
                             requesting Treasury’s comments.

SSA Target Date              August 31, 2000

End Date – OIG Review        2/2/01

OIG Confirmation of Status   Disagree. SSA’s work on this recommendation is
                             incomplete. SSA completed and issued its
                             Accounting Manual chapter, but Treasury is not
                             willing to sign off on it. Instead, Treasury is expected
                             to create its own document defining Treasury and
                             Agency responsibilities for fund management and
                             oversight sometime in 2002. However, SSA should
                             ensure any formal documentation provided by
                             Treasury adequately addresses the responsibilities of
                             both parties and assigns accountability for the various
                             tasks involved in the revenue estimate and the
                             transfer of funds from the Treasury to the SSA trust
                             funds as recommended by PwC.




                                      A-34
Report Section/Area          V. Other

Finding/Rec Number           V.4.

PwC Finding                  Procedures to protect and backup the work
                             completed within SSA's OCACT are lacking. Best
                             business practices dictate sensitive or complex data
                             should be backed up on a regular basis, and the
                             backup material should be stored in an off-site and/or
                             fireproof location. The current revenue estimation
                             models (REVEARN and MODEEM) are backed up on
                             a daily basis, and on a monthly basis the backup
                             tapes are transferred to an off-site location. However,
                             the off-site location is not secure or approved by SSA,
                             and therefore, the data could be at risk. OCACT
                             management indicated that they are awaiting
                             guidance from the Office of Telecommunications and
                             Systems Operations on how and where to better store
                             the back up tapes.

PwC Recommendation           SSA should store the backup tapes on a regular basis
                             at the same SSA-approved off-site location used to
                             store other sensitive data.

SSA Management Response      We agree. However, SSA has no policy to store the
                             kind of backup tapes OCACT produces at its offsite
                             location. Therefore, we propose to purchase a
                             fireproof safe to store monthly backup tapes.

Cross Reference              FY98 Management Letter - Part 2, V.E.

SSA Action Plan              See Management Response

Current Status per SSA       OCACT has purchased a fireproof safe and is storing
                             monthly backup tapes in the safe.

SSA Target Date              Completed

End Date – OIG Review        11/6/00

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             1complete. SSA acquired a fireproof safe and stores
                             the backup tapes inside. The safe is an appropriate
                             type to protect electronic media.



                                       A-35
Report Section/Area       V. Other

Finding/Rec Number        V.7.

PwC Finding               During previous audits, we noted that the four
                          balancing reports generated from the Time Share
                          Option (TSO) system by the Division of Benefit
                          Certification Branch (DBCA) indicated an out-of-
                          balance condition. During 1999, SSA reset the
                          balances on the four main reports, Group Totals,
                          ZPRUNE, ACTSTATS, and the Fax Listing, and
                          temporarily the reports balanced. However, because
                          the exact cause of the out-of-balance condition was
                          not determined, the reports indicated an out-of-
                          balance condition at September 30, 1999.
                          Specifically, the Group Totals report indicated that
                          11,147 fewer payments totaling $3,958,493, were
                          made than payments reported on the other three
                          reports. DBCA believes that they have identified the
                          reason for this out-of-balance condition, but actions to
                          fully resolve this matter have not been taken. Failing
                          to properly balance the reports from the TSO system
                          could cause inaccurate payments to be made to
                          recipients.

PwC Recommendation        SSA should identify the exact cause for this out-of-
                          balance condition, modify the system as needed, and
                          ensure that all out-of-balance conditions are
                          reconciled in a timely manner.

SSA Management Response   We agree. We plan to conduct an analysis and a
                          rewrite of the systems used to produce the group
                          totals in 2000. A new code will be developed to
                          identify and resolve any future out-of-balances.

Cross Reference           FY98 Management Letter - Part 2, V.H.; FY97
                          Management Letter - Part 2, V.2.G.

SSA Action Plan           See Management Response

Current Status per SSA    OSDD has agreed to establish a workgroup during
                          Summer 2000 to further analyze the causes for
                          continuing out of balance conditions. DBCA has
                          prepared and submitted an Initiative Information



                                  A-36
                             Document to place this corrective action on Systems'
                             payment five-year plan

SSA Target Date              Ongoing

End Date – OIG Review        1/9/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. A workgroup was established in
                             November 2000 to determine the causes for the out-
                             of-balance conditions. As SSA reported, an Initiative
                             Information Document has been submitted. Although
                             SSA has taken steps toward correcting this condition,
                             the out-of-balance condition has not been corrected.




                                      A-37
Report Section/Area       V. Other

Finding/Rec Number        V.9.

PwC Finding               The Debt Collection and Improvement Act of 1996
                          authorizes SSA to use several additional procedures
                          to collect Title II overpayments, if the overpayments
                          are not remitted to SSA within a specified time frame.
                          The following procedures, which were authorized by
                          the Act, are not being used by SSA: administrative
                          wage garnishment; Federal salary offset; imposing
                          interest charges; imposing charges to cover the cost
                          of processing and handling a delinquent claim;
                          increasing a claim by the cost of living adjustments in
                          lieu of charging interest and penalties; and the use of
                          private collections agencies. A similar issue was
                          identified during our fiscal year 1997 and 1998 audit.

                          SSA is currently enhancing and expanding the debt
                          collection tools with the highest expected pay offs.
                          SSA is in the process of implementing administrative
                          wage garnishment, and expects to have this tool
                          available by the end of the year. Per SSA, the Social
                          Security Domestic Employment Reform Act of 1994
                          (Public Law 103-387, Section 5), imposing charges
                          only on Overpayments that are "determined by the
                          Commissioner of Social Security, under regulations,
                          to be otherwise unrecoverable under this section after
                          such person ceases to be a beneficiary under this
                          title" makes this collection tool a low priority since the
                          expected pay off is low.

PwC Recommendation        We recommend SSA continue its progress with
                          implementing the procedures authorized by the Debt
                          Collection Improvement Act, placing the highest
                          priorities on those procedures expected to provide the
                          greatest return.

SSA Management Response   We agree. SSA is currently developing the two debt
                          collection tools with the highest expected debt
                          collection payoffs. The two tools are Cross Program
                          Recovery, or the collection of a title XVI debt from any
                          title II benefits payable to the debtor, and
                          Administrative Wage Garnishment, which is the
                          collection of a delinquent debt from the wages of the


                                  A-38
                         debtor. Cross Program Recovery was authorized by
                         a different legislation than DCIA, and SSA estimates
                         that it will yield $175 million in collections over 5
                         years. Implementation is scheduled for October
                         2000. SSA is also engaged in developing
                         administrative wage garnishment, and expects to
                         complete the required planning and analysis by May
                         26, 2000. Implementation is scheduled for FY 2001.

                         When these two tools are successfully implemented,
                         SSA will begin work on developing the next round of
                         new debt collection tools. Heavy consideration will be
                         placed on expansion of SSA's existing credit bureau
                         reporting and administrative offset programs to
                         include title XVI debts (recently authorized by the
                         Foster Care Independence Act of 1999). All other
                         debt collection tools (Federal salary offset, private
                         collection agencies and interest charging) will be
                         developed in turn.

                         In addition, we would like to correct the wording of the
                         finding. The last sentence of the second paragraph
                         (beginning with the words "Per SSA. . ." should be
                         deleted entirely. This sentence incorrectly states that
                         the Domestic Employment Reform Act of 1994
                         authorized SSA to impose charges on the debtor for
                         the cost of debt collection. DCIA authorized this
                         practice.

Cross Reference          FY98 Management Letter - Part 2, V.M.; FY97
                         Management Letter - Part 2, VI.B.

SSA Action Plan          See Management Response

Current Status per SSA   SSA is currently developing four debt collections
                         tools. Two debt collection tools with the highest
                         expected debt collection payoffs and two title XVI
                         tools where SSA has an existing title II process in
                         place. The two tools with the highest debt collection
                         payoff are Cross Program Recovery, or the collection
                         of a title XVI debt from any title II benefits payable to
                         the debtor, and Administrative Wage Garnishment,
                         which is the collection of a delinquent debt from the
                         wages of the debtor. Cross Program Recovery was
                         authorized by a different legislation than DCIA, and


                                 A-39
                             SSA estimates that it will yield $115 million in
                             collections over 5 years. Implementation is
                             scheduled for January 2001. SSA is also engaged in
                             developing administrative wage garnishment, and
                             expects to complete the required planning and
                             analysis by July 31, 2000. Implementation is
                             scheduled for FY 2001. Expansion of SSA's existing
                             credit bureau reporting and administrative offset
                             programs to include title XVI debts (recently
                             authorized by the Foster Care Independence Act of
                             1999) is currently in planning and analysis with a
                             completion date of 6/30/00. These tools are expected
                             to be implemented in January 2001.

                             When these four tools are successfully implemented,
                             SSA will begin work on developing the next round of
                             new debt collection tools. It is expected that Federal
                             salary offset will be the next tool to be considered for
                             implementation, however, this tool is still in the
                             development process at Treasury and the timeframe
                             needs to be worked out in conjunction with Treasury.
                             All other debt collection tools (private collection
                             agencies and interest charging) will be developed in
                             turn.

SSA Target Date              Various

End Date – OIG Review        01/10/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA was not able to implement Cross
                             Program Recovery debt collection in January 2001
                             due to unforeseen outside circumstances. Despite
                             this setback, SSA appears to be on target to
                             implement this tool as well as Administrative Wage
                             Garnishment during FY 2001. SSA still plans to
                             implement the remaining debt collection tools in turn.




                                       A-40
Report Section/Area       V. Other

Finding/Rec Number        V.13.

PwC Finding               During our review of the CDR profiling and scoring
                          process, we noted that the Office of Disability did not
                          maintain sufficient documentation of input data sets
                          and variables used in fitting the prediction models
                          currently used. Without this documentation, the CDR
                          profiling and scoring programs are at risk of not
                          having sufficient information available for review
                          which would support the profile scores and the overall
                          program and which demonstrate that the programs
                          identify those beneficiaries most likely to improve
                          medically, as required by CDR legislation. In addition,
                          we noted that the CDR profiling program is continually
                          under development without version control
                          procedures and without adequate cataloging and
                          comparison of results based on the different variables
                          used in the different models.

PwC Recommendation        We recommend that SSA maintain documentation of
                          the CDR profiling and scoring programs, including
                          input data sets and all variables used in fitting the
                          prediction models. Since profiling validation activities
                          are ongoing, version control also should be
                          implemented along with a fixed schedule for
                          developmental analyses and algorithm updates. All
                          study results should be catalogued, including
                          developmental data sets used to define the
                          algorithms actually used.

SSA Management Response   We agree with this recommendation.

                          For clarification of the finding, while the law does
                          require SSA to review cases for purposes of
                          continuing eligibility, it should be noted that CDR
                          diaries determine “when” CDRs should be performed.
                          The “profiles” in concert with the CDR mailer
                          responses indicate “how” to process the CDR.

Cross Reference           New

SSA Action Plan           See Current Status.



                                  A-41
Current Status per SSA       Under the Agency's contract with
                             PricewaterhouseCoopers (PwC), PwC is providing
                             documentation of our profiling procedures. The
                             contract will be completed in December 2000.

SSA Target Date              December 2000.

End Date – OIG Review        2/1/01

OIG Confirmation of Status   Disagree. SSA’s work on this recommendation is
                             incomplete. SSA had not maintained sufficient
                             documentation from the creation of the CDR eligible
                             file and exclusion files as PwC recommended in the
                             FY 99 Management Letter. The documentation SSA
                             provided to PwC had to be reproduced. In addition,
                             the contract referred to in SSA’s Action Plan does not
                             state that PwC’s consulting group will provide profiling
                             documentation. The relevant objective of the contract
                             was to review the effectiveness of existing CDR
                             profiling methodology and recommend action to
                             improve that methodology. The date of the final
                             report from this contract was pushed back from
                             December 2000 to February 15, 2001.

                             SSA staff stated that there are too many variables
                             tested in prediction models to maintain
                             documentation on all of them. We agree that
                             maintaining documentation on variables that
                             ultimately do not get used in the prediction models
                             may be logistically overwhelming for SSA. This
                             disagreement will need to be worked out between
                             PwC and SSA.




                                      A-42
Report Section/Area       V. Other

Finding/Rec Number        V.14.

PwC Finding               The tax revenue estimation process is performed by
                          the Office of the Chief Actuary (OCACT) using
                          complex and sophisticated econometric models. We
                          noted that OCACT does not have a formal policy
                          addressing version and document control over the
                          estimation model outputs (Fiscal Year Budget and
                          Mid-Session Review of the Fiscal Year Budget
                          documents) which are produced semi-annually and
                          provide short-term tax revenue estimates as well as
                          long-term revenue projections for the annual report of
                          the Board of Trustees of the trust funds.

                          During our testing, we noted OCACT does not have
                          policies that require the performance of a standard
                          set of procedures or checks on the data and
                          calculations reported in the model outputs which are
                          used by Treasury for short-term tax revenue
                          estimates. If OCACT does not check the short-term
                          revenue data and calculations prior to submission to
                          Treasury semi-annually, there is an increased risk
                          that an erroneous revenue estimate could be
                          provided to Treasury and used to transfer revenue to
                          the SSA trust funds.

PwC Recommendation        OCACT should create and implement a formal policy
                          which addresses version and document control
                          surrounding the semi-annual model outputs. Final
                          model outputs and any revisions, if applicable, should
                          be archived (in electronic copy and hard copy) and
                          readily available for review.

                          We also recommend that OCACT identify a standard
                          set of checks and procedures that should be
                          performed on short-term revenue data and
                          calculations produced by the models. The checks and
                          procedures should be performed and evidenced on
                          each final model output (or budget document) prior to
                          submission to Treasury.

SSA Management Response   We agree and believe current procedures adequately
                          address the recommendation. OCACT currently has


                                  A-43
                             archives of final model outputs in both electronic and
                             hard copy form. A standard set of checks and
                             procedures is already performed for each final model
                             output before submission to Treasury, the output of
                             which is kept in the hard copy archive with the final
                             model output. This recommendation is complete.

Cross Reference              New

SSA Action Plan              See Management Response

Current Status per SSA       See Management Response.

SSA Target Date              Complete

End Date – OIG Review        2/6/01

OIG Confirmation of Status   Disagree. SSA’s work on this recommendation is
                             incomplete. In accordance with OMB and JFMIP
                             requirements, OCACT staff need to formally
                             document the standard checks and procedures they
                             use to reconcile output data so that in the event of
                             unforeseen staff loss, operations could continue with
                             minimal interruption.

                             We did express to PwC that we believe the problems
                             related to this issue needed to be more specifically
                             defined in the FY 2000 Management Letter. For
                             example, PwC management could have
                             recommended that OCACT identify in writing
                             procedures and a standard set of checks performed
                             on short-term revenue data and calculations
                             produced by the models. They also could have
                             recommended that written operating procedures be
                             created for REVERN and MODEEM. The FY 1999
                             recommendation did not address the area of
                             operating procedures for the REVERN and MODEEM
                             systems, yet this is what PwC seemed to focus on in
                             forming its conclusions.




                                      A-44
Report Section/Area       V. Other

Finding/Rec Number        V.17.

PwC Finding               Total operating expenses for the SSI Program
                          increased by $497 million between 1998 and 1999.
                          This represents a 21% increase in total operating
                          expenses for the year. Total operating expenses for
                          the OASI Program actually decreased during the
                          same time period, while total operating expenses for
                          the DI Program increased by less than 6%. Although
                          we met with SSA personnel on this matter several
                          times, we were unable to obtain clearly articulated
                          business reasons for this dramatic increase in
                          expenses. To ensure proper financial management of
                          this or any other program, we believe that SSA should
                          be able to provide detailed answers for any significant
                          changes in its financial operations.

PwC Recommendation        SSA should develop procedures to clearly articulate
                          and explain any significant change in its financial
                          operations. Regular financial analysis should be
                          conducted on program expenses and all other
                          financial matters, to help ensure the overall accuracy
                          of SSA’s operations, and to ensure that variations are
                          investigated and resolved.

SSA Management Response   We agree and via variance reports, we regularly
                          analyze significant changes (increases and
                          decreases) in the SSA balance sheet, net cost,
                          changes in net position, financing and budgetary
                          resources. In addition, administrative expenses are
                          further segmented by major object classification to
                          identify aberrations. Specific to the SSI program, FY
                          1999 operating costs increased by $497 million for
                          several reasons. They reflect the Agency’s major
                          planned initiatives to conduct Welfare Reform and
                          increased Continuing Disability Reviews, both of
                          which are weighted more heavily towards the SSI
                          program. They also reflect the Agency’s SSI “high
                          risk” initiatives, especially in the form of increased SSI
                          Redeterminations of Eligibility.




                                  A-45
                             Additionally, as part of our responses to finding V.18.,
                             we plan to more thoroughly review changes in SSA’s
                             operations

Cross Reference              New

SSA Action Plan              See Management Response

Current Status per SSA       To enhance the review of any changes in SSA’s
                             financial operations, beginning in January 2000
                             internal monthly financial statements have been
                             prepared. In addition, analysis was conducted and
                             research occurred for any aberration of assets,
                             liabilities, revenues and expenses.

SSA Target Date              Completed March 17, 2000

End Date – OIG Review        6/15/01

OIG Confirmation of Status   Agree. Work on this recommendation is complete.
                             SSA has a business process in place to research
                             significant changes in financial operations and is
                             preparing monthly financial statements to detect any
                             significant changes early. PwC was satisfied that
                             SSA could explain all significant changes between the
                             FY 1999 and FY 2000 financial statements.

                             Although we agree this recommendation is complete,
                             additional research into the SSI operating expenses
                             revealed a separate issue, which we addressed in the
                             body of this report. We could not conclude on
                             whether SSA properly handled the correction of an
                             error that caused SSI administrative costs to be
                             understated. We found that SSA is recording excess
                             obligations over the SSI administrative allotment as
                             unfunded liabilities, not obligations. We made a
                             separate recommendation in the report that SSA, at a
                             minimum, report any unfunded liabilities in the
                             footnote section of the SF-133, Report on Budget
                             Execution and Budgetary Resources, and disclose
                             the unfunded liability in the footnote associated with
                             the Statement of Budgetary Resources. PwC is in the
                             process of reviewing this issue.




                                       A-46
Report Section/Area       V. Other

Finding/Rec Number        V.18.

PwC Finding               SSA needs to perform a more detailed quality review
                          of its financial statements and related note
                          disclosures. For example, the accrued liability for the
                          Railroad Retirement Interchange was applied to the
                          Statement of Budgetary Resources for the Old Age
                          and Survivors Insurance Trust Fund but was never
                          posted to the Statement of Budgetary Resources.
                          Although, the inconsistencies identified during the
                          audit were corrected, they should have been
                          identified and corrected by SSA management during
                          a quality control review.

PwC Recommendation        We recommend that SSA strengthen its quality
                          control review of the financial statements and related
                          note disclosures, including verifying relationships
                          between items on the financial statements and
                          related note disclosures.

SSA Management Response   We agree. We plan to use the monthly financial
                          statement preparation process as a vehicle to identify
                          and inform SSA management of any major trends
                          and aberrations in SSA programs. Where necessary,
                          we will recommend corrective action and/or suggest
                          alternatives for appropriate financial reporting.
                          Target completion date: February 29, 2000.

                          In addition, we plan to develop a checklist to ensure
                          the consistency of data in SSA’s financial statements
                          and related footnotes. Target completion date:
                          August 31, 2000.

Cross Reference           New

SSA Action Plan           See Management Response

Current Status per SSA    For the period January 2000, SSA developed internal
                          monthly financial statements. These reports were
                          completed and a thorough analysis was conducted of
                          any major trends and aberrations in SSA programs.




                                  A-47
                             In addition, SSA developed a checklist to ensure
                             consistency of data in SSA’s financial statements and
                             footnotes.

SSA Target Date              Strengthening of quality reviews - Completed March
                             17, 2000.

                             Checklist of financial statement line items to footnotes
                             – Completed February 7, 2000

End Date – OIG Review        3/6/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. SSA has taken steps to strengthen the
                             quality control review process. Although PwC found
                             inconsistencies between information on the financial
                             statements, footnotes, and required supplementary
                             information during their FY 2000 audit, we believe
                             SSA’s efforts have met the intent of PwC’s
                             recommendation and will prevent future
                             inconsistencies. SSA staff are preparing monthly
                             financial statements for internal use to detect any
                             significant changes early. In addition, they have
                             expanded their Financial Statement Checklist to verify
                             the consistency of information in all parts of the
                             Performance and Accountability Report. We
                             encourage SSA to continue the use of the quality
                             control review process as an integral part of financial
                             statement preparation.




                                      A-48
Report Section/Area       III. Programmatic Systems – Title II (Section in FY98
                          Management Letter)

Finding/Rec Number        III.1.B. (Number as assigned for the FY98
                          Management Letter)

PwC Finding               In 1997, we identified 316 beneficiary records
                          (projected total of 6,320) where one or more of the
                          following conditions existed:

                          - Date of disability onset was after the date of
                             entitlement to disability
                          - Date of previous disability was prior to the date of
                             birth
                          - Claim date was prior to the date of birth
                          - Date of death was prior to the date of birth

                          With the implementation of the Title II Re-design,
                          scheduled for May 1999, SSA plans to implement
                          programmatic edit routines to prevent processing
                          where:

                          - The date of disability onset is after the date of
                             entitlement to disability
                          - Date of previous disability is prior to the date of
                             birth, and
                          - A claim date is prior to the date of birth.

                          Subsequent testing in 1998 revealed that Title II’s
                          MCS system had a new edit to prevent the
                          processing of a claim where the date of death is prior
                          to the date of birth. However, we identified 334
                          records (projected total of 6,680) that met the other
                          three conditions mentioned above.

PwC Recommendation        SSA should ensure that the Title II Redesign includes
                          programmed edit routines to prevent each of the
                          above outstanding erroneous data input processing
                          functions.

SSA Management Response   We agree and will ensure that these edit routines will
                          be included in a future Title II redesign release.

Cross Reference           FY 97 Management Letter – Part 2, III.6.A.11.



                                  A-49
SSA Action Plan              See Management Response

Current Status per SSA       Changes made to MCS software during the T2R
                             Release 1 software, which went to production on
                             June 20, 1999, preclude the possibility of the first
                             three conditions from occurring.

                             The fourth condition had been previously withdrawn
                             by the auditors.

SSA Target Date              Complete

End Date – OIG Review        4/4/01

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. In November 1999, we performed tests on
                             the MBR to find transactions where these four data
                             integrity problems still existed. We found instances
                             where the edits did not work for all types of claims
                             processed.

                             In March 2001 we repeated the MBR tests. SSA
                             reported that new edits had been added to MCS in
                             November 2000 to prevent further discrepancies. Our
                             testing found no cases where the MCS edits that
                             were put in place to prevent input errors failed. In
                             conjunction with SSA personnel assigned to this
                             recommendation, we were able to determine that
                             another problem does exist in the CUTR program,
                             which is part of the jobstream used to update the
                             existing MBR. This caused what appeared to be a
                             discrepancy on the MBR for a case identified in our
                             testing. SSA has determined that a software fix is
                             required for CUTR and plans to have the fix in
                             production in September of this year.

                             We did find that some cases are adjudicated through
                             the MADCAP system, by-passing the MCS edits.
                             One of the edits is not in place in the MADCAP
                             system. However, we found that POMS allows this
                             exception in order to show continuous coverage
                             under the Medicare program.




                                      A-50
                                                         Appendix B

Acronyms
ACID       Automated Continuing Investigation of Disability Program
AM         Administrative Message
BIC        Beneficiary Identification Code
CDR        Continuing Disability Review
CDRCF      Continuing Disability Review Control File
CIRP       Comprehensive Integrity Review Process
CUTR       The MCS batch program that builds the MBR update records.
DACUS      Death Alert, Control and Update System
DBCA       Division of Benefit Certification Branch
DCDISP     Deputy Commissioner for Disability and Income Security Programs
DCFAM      Deputy Commissioner for Finance, Assessment and Management
DCIA       Debt Collection Improvement Act
DCO        Deputy Commissioner for Operations
DCS        Deputy Commissioner for Systems
DDS        Disability Determination Service
DI         Disability Insurance
EDR        Electronic Death Registration
EIN        Employer Identification Number
FACTS      Financial Accounting System
FO         Field Office
FY         Fiscal Year
GAO        General Accounting Office
IDA        Index of Dollar Accuracy
IVT        Interactive Video Training
JFMIP      Joint Financial Management Improvement Program
LAE        Limitation on Administrative Expenses
MADCAP     Manual Adjustment, Credits and Award Process
MBR        Master Beneficiary Record
MCS        Modernized Claims System
MI         Management Information
MSSICS     Modernized Supplemental Security Income Claims System
MOU        Memorandum of Understanding
NUMIDENT   A query using the SSN to obtain the name of the number’s owner
OASI       Old Age and Survivors Insurance
OCACT      Office of the Chief Actuary
ODIO       Office of Disability and International Operations
ODISP      Office of Disability and Income Security Programs
OEVS       Online Employee Verification System




                               B-1
OHA      Office of Hearings and Appeals
OIG      Office of the Inspector General
OIM      Office of Information Management
OQA      Office of Quality Assurance
OS       Office of Systems
OSCAR    Optical System for Correspondence Analysis and Response
OSDD     Office of Systems Design and Development
OTSO     Office of Telecommunications and Systems Operations
PC       Processing Center
PC-CDR   Personal Computer – Continuing Disability Review (i.e. work and
         earnings)
PER      Preeffectuation Review
POMS     Program Operations Manual System
PSC      Payment Service Center
PwC      PricewaterhouseCoopers LLP
QA       Quality Assurance
RO       Regional Office
SAC      Special Action Code
SAIR     Supplemental Security Income Security and Integrity Review
SET      Software Engineering Technology
SIC      Special Indication Code
SR       System Release
SRC      System Release Certification
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
SSR      Supplemental Security Record
TII      Title II of the Social Security Act
TPD      Third Party Draft
TPPS     Third Party Payment System
TSO      Time Share Option
TXVI     Title XVI of the Social Security Act




                              B-2
                  Appendix C

Agency Comments
                                                     ~\. SE('b
                                                ~~       "', :-e..
                                                               ~
                                                      UA
                                                \     1IIII11
                                                            ~I
                                                     7J\o'/sTV

                                   SOCIAL             SECURITY


MEMORANDUM


      January     17,   2002                                              Refer To:   SlJ-3

To:   JamesG. Ruse, Jr.
      Inspector General

      Larry Dye
      Chief  ~
                                    ~
                   '-"'-'
      Office of the Inspector General (OIG) Draft Report, "Status of the Social Security
      Administration's Implementation of Fiscal Year 1999 Management Letter Recommendations"
      (A-15-00-30056}-INFORMA TION


      We appreciate OIG's efforts in conducting this review. Our comments on the report content
      and recommendations are attached.

      Staff questions can be referred to Laura Bell on extension 52636.

      Attachment:
      SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, STATUS OF THE SOCIAL SECURITY ADMINISTRATION’S (SSA’S)
IMPLEMENTATION OF FISCAL YEAR (FY) 1999 MANAGEMENT LETTER
RECOMMENDATIONS (A-15-00-30056)


General Comments

We continue to believe that the five prior recommendations OIG does not consider closed have
been properly implemented. Our reasons are stated below.

Item 1

PricewaterhouseCoopers (PwC) recommended SSA ensure that the changes in the edit criteria
required to improve suspense processing, along with the addition of a Third Party Draft vendor
table, are implemented as soon as possible and that the vendor tables in both the Third Party
Draft system and the Financial Accounting System (FACTS) are maintained in a consistent
manner.

The primary issue originally identified by PwC was to improve the processing for third party
draft suspense items. A number of steps were taken to reduce the suspense items to a level that
addressed PwC’s initial concern. Part of the original corrective action plan provided for
including edit changes and a vendor file in the software that supports the process. The software
changes were made and have helped reduce the original errors. It was also determined that it was
not cost effective to synchronize the cashier software vendor file with SSA’s central vendor file.
Since the measures taken addressed the audit issue of reducing the suspense backlog, we believe
the issue is closed.

Item 2

PwC recommended SSA enhance current policies and procedures to ensure that the de-obligation
process for open obligations is operating effectively and timely.

The Agency implemented new procedures to list obligations with no activity for 3 months and
monitor total obligations for reasonableness. We also use monthly Reports of Validations to
track open items that have been removed. As part of its normal accounting process, SSA’s
accounting office validates and liquidates obligations in coordination with the component that
initially established the obligation. Any change to an obligation is reflected in information
maintained by component procurement/budget staff. SSA’s accounting office also analyzes
changes in open obligations after the close of each fiscal year and systematically confirms the
validity of transactions that remain open.




                                               C-1
Item 3

PwC recommended SSA seek to formalize, via a Memorandum of Understanding (MOU), the
process used to transfer revenue estimates from the Department of Treasury (Treasury) to the
SSA trust funds.

As noted in the report, the Agency developed procedures outlining the process for providing
revenue estimates to Treasury and submitted them to Treasury for review. However, Treasury
plans to meet with every Federal agency to establish an MOU regarding each agency’s role in
relation to Treasury’s responsibilities. SSA will include the revenue estimate process in this
MOU, which is scheduled to be completed in FY 2002.

Item 4

PwC recommended SSA maintain documentation of the Continuing Disability Review (CDR)
profiling and scoring programs, including input data sets and all variables used in fitting the
prediction models.

Under the Agency's contract with PwC, PwC has developed an entirely new set of profiling
models. Part of the profiling package includes reference material that provides complete
technical documentation of these profiling models. These models were used in creating the
FY 2002 CDR selection file and are the only profiling models currently in use. This contract
with PwC ended in December 2001, and the profiling model technical documentation is available
for review.

Item 5

PwC recommended the Office of the Chief Actuary create and implement a formal policy which
addresses version and document control surrounding the semi-annual model outputs and identify
a standard set of checks and procedures that should be performed on short-term revenue data and
calculations produced by the models.

SSA continues to disagree with OIG’s statement that the actions taken did not meet the intent of
PwC’s recommendations. The Agency identified and developed a standard set of checks and
procedures, and they are evidenced in our model output.


Recommendation 1

SSA should continue to work to bring all of the issues identified by PricewatersCoopers (PwC)
to closure within the next audit cycle.

Comment

We agree. SSA will continue to work with PwC to resolve outstanding financial statement issues
within the timeframes established between auditors and the Agency. Any outstanding
recommendations contained in Appendix A from the 1999 Management Letter recommendations
will be updated and addressed in the FY 2001 Financial Statement review expected to be
completed by the end of January 2002.
                                               C-2
Recommendation 2

The Agency should, at a minimum, report any unfunded liabilities in the footnote section of the
SF-133 (Report on Budget Execution and Budgetary Resources) and disclose the unfunded
liability in the Financial Statement footnote associated with the Statement of Budgetary
Resources (SBR). However, PwC may determine that further reporting or disclosure is
necessary. This may require additional action on the part of the agency.

Comment

While we agree that the SF-133 can include a footnote whenever an unfunded liability situation
exists, we do not agree that a footnote should be included on the SBR. As OIG states in the
report, PwC is currently reviewing the accounting for unfunded liabilities as part of its Financial
Statement audit. Additionally, the Agency’s secondary management representation letter for the
FY 2001 Financial Statements identifies this non-material issue as needing further research
during FY 2002. We believe it would be prudent to withhold judgment concerning the SF-133
and the SBR footnotes pending the results of PwC’s current review of the Financial Statements.

Recommendation 3

The Agency should institute a monitoring system to ensure that annual Supplemental Security
Income (SSI) expenses and obligations made in excess of the annual SSI administrative allotment
do not continue to grow.

Comment

We agree. The Agency currently has a monitoring system in place to track and handle any
unfunded SSI expenditures. However, the integrated nature of SSA workloads makes it difficult
to predict with absolute precision the amount of resources that will be expended for any one
program in any given year. That is why Congress provided funding flexibility in Section 201 of
the Social Security Act. SSA estimates annually what it will need for all programs, including
SSI. If SSI funding levels are inadequate in any one year, SSA requests additional dollars to
cover unfunded liabilities in subsequent years.




                                                C-3
                                                                   Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Frederick C. Nordhoff, Director, Financial Management and Performance Monitoring
   Audit Division (410) 966-6676
   Victoria Vetter, Deputy Director, Financial Management, (410) 966-9081

Acknowledgments

In addition to those named above:

   Kristen Schnatterly, Auditor-in-Charge
   Lance Chilcoat, Senior Auditor
   Dory Dillard, Auditor
   Pat Kennedy, CAATs Support
   Chuck Zaepfel, CAATs Support
   Annette DeRito, Program Analyst
   Lewis Dardick, Office of the Counsel to the Inspector General
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
